Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




 LESS THAN HALF OF PART D
  SPONSORS VOLUNTARILY
    REPORTED DATA ON
   POTENTIAL FRAUD AND
          ABUSE



                    Daniel R. Levinson
                     Inspector General

                      March 2014
                     OEI-03-13-00030
EXECUTIVE SUMMARY: LESS THAN HALF OF PART D SPONSORS
VOLUNTARILY REPORTED DATA ON POTENTIAL FRAUD AND ABUSE
OEI-03-13-00030

WHY WE DID THIS STUDY

In 2011, total expenditures for the Medicare Part D prescription drug program were
$67.1 billion. The Centers for Medicare & Medicaid Services (CMS) contracts with plan
sponsors to provide Part D coverage to beneficiaries. The Office of Inspector General
has recommended that CMS require sponsors to report data on potential fraud and abuse
related to Part D to CMS. Rather than requiring these data, CMS encouraged sponsors to
voluntarily report them beginning in 2010. This study provides information on the fraud
and abuse data reported by sponsors and on whether CMS used these data to monitor or
oversee the Part D program.

HOW WE DID THIS STUDY

We accessed CMS’s Healthcare Plan Management System to download data on potential
fraud and abuse reported by Part D plan sponsors from 2010 through 2012. We also
accessed CMS’s public files of Part D enrollment to determine the number of
beneficiaries enrolled in Part D plans from 2010 through 2012. We reviewed the
sponsors’ aggregate data to determine the number and percentage of sponsors that
reported data on potential fraud and abuse each year. In addition, we surveyed CMS
about its review and use of these reported data.

WHAT WE FOUND

More than half of Part D plan sponsors did not report data on potential fraud and abuse
between 2010 and 2012. Of those sponsors that did report data, more than one-third did
not identify any incidents for at least one of their reporting years. In total, sponsors
reported identifying 64,135 incidents of potential fraud and abuse between 2010 and
2012. Sponsors’ identification of such incidents varied significantly, from 0 to almost
14,000 incidents a year. CMS requires sponsors to conduct inquiries and implement
corrective actions in response to incidents of potential fraud and abuse; however,
28 percent of Part D plan sponsors reported performing none of these actions between
2010 and 2012. Although CMS reported that it conducted basic summary analyses of the
data on potential fraud and abuse, it did not perform quality assurance checks on the data
or use them to monitor or oversee the Part D program.

WHAT WE RECOMMEND

We recommend that CMS (1) amend regulations to require sponsors to report to CMS
their identification of and response to potential fraud and abuse; (2) provide sponsors
with specific guidelines on how to define and count incidents, related inquiries, and
corrective actions; (3) review data to determine why certain sponsors reported especially
high or low numbers of incidents, related inquiries, and corrective actions; and (4) share
sponsors’ data on potential fraud and abuse with all sponsors and law enforcement. CMS
did not concur with the first recommendation, partially concurred with the second and
fourth recommendations, and concurred with the third recommendation.
TABLE OF CONTENTS

Objectives ....................................................................................................1 

Background ..................................................................................................1 

Methodology ................................................................................................5 

Findings........................................................................................................7 

           More than half of Part D plan sponsors did not report data on 

           potential fraud and abuse between 2010 and 2012 ..........................7 

           Sponsors’ identification of incidents of potential fraud and 

           abuse varied significantly, from 0 to almost 14,000 incidents 

           a year................................................................................................8 

           Twenty-eight percent of Part D plan sponsors reported initiating 

           no inquiries and corrective actions regarding incidents of 

           potential fraud and abuse between 2010 and 2012 ........................10 

           Although CMS reported that it conducted basic summary 

           analyses of the data on potential fraud and abuse, it did not 

           perform quality assurance checks on the data or use them to 

           monitor or oversee the Part D program..........................................12 

Conclusion and Recommendations ............................................................15 

           Agency Comments and Office of Inspector General Response.....17 

Appendix....................................................................................................20 

           A: Number of Incidents Identified for Each Part D Plan Sponsor 

           That Reported Data and Number of Beneficiaries in 2012............20 

           B: Number and Types of Incidents of Potential Fraud and Abuse 

           Identified by Part D Plan Sponsors From 2010 Through 2012 .....25 

           C: Agency Comments ...................................................................26 

Acknowledgments......................................................................................29 

                   OBJECTIVES
                   To determine:
                   1.	 the extent to which Part D plan sponsors voluntarily reported data on
                       potential fraud and abuse to the Centers for Medicare & Medicaid
                       Services (CMS) for 2010 through 2012 and
                   2.	 the extent to which CMS used these data to monitor or oversee
                       sponsors’ activities to control fraud and abuse.

                   BACKGROUND
                   Medicare Part D is the voluntary prescription drug program that went into
                   effect in 2006. In 2011, 35.7 million beneficiaries were enrolled in Part D
                   and total expenditures for Part D were $67.1 billion.1
                   Plan Sponsors
                   CMS contracts with private insurers, called plan sponsors, to provide
                   Part D coverage to beneficiaries. Sponsors may offer beneficiaries two
                   types of drug plans. One type provides drug coverage only and is called a
                   prescription drug plan (PDP), or stand-alone plan. The other type
                   provides all Medicare benefits (e.g., hospital and physician services),
                   including drug coverage, and is called a Medicare Advantage prescription
                   drug plan (MA-PD).
                   Sponsors may have one or more Part D contracts with CMS.2 Each
                   contract may include one or more plans for enrollees to choose from in a
                   specific geographic region. Plans can vary in the prescription drugs
                   covered and the amount of out-of-pocket expenses for which the
                   beneficiary is responsible.
                   Sponsors are responsible for all Medicare contract requirements and must
                   ensure that all entities with which they subcontract meet regulatory and
                   compliance requirements.3 These subcontractors include, but are not
                   limited to, pharmacy benefit managers, pharmacies, marketing firms, and
                   claims processing firms.


                   1
                     The Boards of Trustees, Federal Hospital Insurance and Federal Supplementary Medical
                   Insurance Trust Funds, 2012 Annual Report, p. 10. 

                   2
                     Throughout this report, the word “sponsor” also refers to individual Part D contracts 

                   because CMS requests that sponsors report data on potential fraud and abuse by contract. 

                   3
                     42 CFR §§ 422.504(i) and 423.505(i); CMS, Prescription Drug Benefit Manual, 

                   Pub. 100-18, ch. 9, § 40; Medicare Managed Care Manual, Pub. 100-16, ch. 21, § 40. 


Less Than Half of Part D Sponsors Voluntarily Reported Data on Potential Fraud and Abuse (OEI-03-13-00030)   1
                   Compliance Programs To Control Fraud, Waste, and Abuse
                   Sponsors are required to implement a compliance program that includes
                   measures to control fraud, waste, and abuse.4 Under the compliance
                   program, CMS requires sponsors to conduct a timely, reasonable inquiry
                   when evidence suggests potential fraud or abuse related to payment or
                   delivery of items or services under their contracts.5 In addition, CMS
                   requires sponsors to carry out appropriate corrective actions in response to
                   potential fraud and abuse.6 Furthermore, sponsors should have procedures
                   to report potential fraud or misconduct to CMS or its designee.7 However,
                   sponsors are not required to actually report this information to CMS or its
                   designee.
                   Medicare Part D Drug Reporting
                   Each year CMS issues a Medicare Part D Reporting Requirements
                   document to sponsors. This document includes topics on which sponsors
                   must report information to CMS. Topics include, but are not limited to,
                   enrollment, coverage determinations, appeals, pharmaceutical
                   manufacturer rebates, and long-term care utilization.
                   Voluntary Reporting of Numeric Data Related to Fraud and Abuse. In
                   January 2010, CMS added a new topic to the reporting requirements
                   document. The new topic was “voluntarily reported aggregate data related
                   to [sponsors’] anti-fraud, waste, and abuse activities.”8 These are
                   aggregated numeric data. They do not provide any narrative or descriptive
                   information about the specific incidents of potential fraud and abuse
                   identified.
                   In the reporting requirements document, CMS defines incidents of
                   potential fraud and abuse. CMS defines a “fraud incident/complaint” as
                   an allegation that a provider, a beneficiary, or other entity “engaged in an
                   intentional deception or misrepresentation that the individual knows to be
                   false or does not believe to be true, and the individual makes knowing that
                   the deception could result in some unauthorized benefit to himself/herself
                   or some other person.” CMS defines an “abuse incident/complaint” as an
                   allegation that a provider, a beneficiary, or other entity “engaged in
                   behavior that the individual should have known to be false, and the


                   4
                     42 CFR §§ 422.503(b)(4)(vi) and 423.504(b)(4)(vi).

                   5
                     42 CFR §§ 422.503(b)(4)(vi)(G)(1) and 423.504(b)(4)(vi)(G)(1). 

                   6
                     42 CFR §§ 422.503(b)(4)(vi)(G)(2) and 423.504(b)(4)(vi)(G)(2). 

                   7
                     42 CFR §§ 422.503(b)(4)(vi)(G)(3) and 423.504(b)(4)(vi)(G)(3). 

                   8
                     CMS, Medicare Part D Reporting Requirements, p. 27, effective January 1, 2010. 


Less Than Half of Part D Sponsors Voluntarily Reported Data on Potential Fraud and Abuse (OEI-03-13-00030)   2
                   individual should have known that the deception could result in some
                   unauthorized benefit to himself/herself or some other person.”
                   Sponsors that choose to report data are asked to submit them each year by
                   February 28 for the previous contract year and to report the numbers at the
                   contract level. The particular types of data sponsors report include:
                         	 the number of incidents of potential fraud and abuse identified
                            within selected types of fraud and abuse (e.g., number of incidents
                            related to inappropriate billing),
                         	 the number of incidents of potential fraud and abuse identified by
                            internal sources or external sources,
                         	 the number of inquiries initiated as a result of incidents of potential
                            fraud and abuse,
                         	 the number of corrective actions initiated as a result of incidents of
                            potential fraud and abuse,
                         	 the number of incidents of potential fraud and abuse referred to
                            CMS for action,
                         	 the number of incidents of potential fraud and abuse referred to
                            State insurance commissioners or licensing authorities, and
                         	 the number of incidents of potential fraud and abuse referred to
                            local or Federal law enforcement entities for action.9
                   According to CMS’s reporting requirements document, these data would
                   enable CMS to monitor sponsors’ programs to control fraud, waste, and
                   abuse. The document also states that such data would measure types of
                   incidents of potential fraud and abuse as well as activities taken by
                   sponsors in response to the incidents.
                   Technical Specifications for Reporting. In connection with the annual
                   reporting requirements document, CMS issues a technical specifications
                   document to sponsors. This latter document includes definitions of the
                   types of data to report and informs Part D sponsors that the reporting of
                   these data is voluntary.
                   As of the 2013 technical specifications document, CMS stated that it had
                   not yet determined how it would evaluate the aggregated reported data on




                   9
                       CMS, Medicare Part D Reporting Requirements, p. 28, effective January 1, 2010.

Less Than Half of Part D Sponsors Voluntarily Reported Data on Potential Fraud and Abuse (OEI-03-13-00030)   3
                   activities to control fraud, waste, and abuse or how it might monitor other
                   data sources.10
                   Healthcare Plan Management System
                   CMS uses a system named the Health Plan Management System (HPMS)
                   to maintain Part D records and communication with sponsors. Within
                   HPMS, the voluntarily reported aggregate data on potential fraud and
                   abuse are accessible in standard extract files.
                   Related Office of Inspector General Work
                   This report adds to a body of work on sponsors’ identification of fraud,
                   waste, and abuse. In February 2012, the Office of Inspector General
                   (OIG) issued a report on Medicare Advantage (MA) organizations’
                   identification of potential fraud and abuse in 2009. In that year, these
                   organizations identified 147,840 incidents of potential Part D fraud and
                   abuse, and not all of these organizations initiated inquiries or corrective
                   actions in response to the incidents they identified.
                   Many MA organizations offer both Part C and Part D coverage to
                   beneficiaries. OIG found that only 3 of 170 MA organizations identified
                   95 percent of the incidents of potential fraud and abuse within Part C and
                   Part D. OIG also found that differences in the way organizations defined
                   and detected potential fraud and abuse may account for some of the
                   variability in the number of incidents identified. OIG recommended that
                   CMS require MA organizations to report data on their activities to control
                   fraud, waste, and abuse. In response, CMS stated it would explore the
                   option of requiring MA organizations to report aggregate data on antifraud
                   activities.11
                   Another OIG report, issued in October 2008, similarly found that most of
                   the incidents of potential fraud and abuse identified by PDP sponsors in
                   2007 were reported by only a small number of sponsors. In the first
                   6 months of 2007, PDP sponsors identified 9,774 incidents of potential
                   fraud and abuse, and not all PDP sponsors that identified such incidents
                   conducted inquiries, initiated corrective actions, or made referrals for
                   further investigation. We recommended that CMS require plan sponsors
                   to report information related to the results of their programs to control



                   10
                      CMS, Medicare Part D Plan Reporting Requirements: Technical Specifications
                   Document, Contract Year 2013, p. 72. 

                   11
                      OIG, Medicare Advantage Organizations’ Identification of Potential Fraud and Abuse, 

                   OEI-03-10-00310, February 2012. 


Less Than Half of Part D Sponsors Voluntarily Reported Data on Potential Fraud and Abuse (OEI-03-13-00030)   4
                   fraud and abuse. CMS did not state whether it concurred with this
                   recommendation.12

                   METHODOLOGY
                   Data. We accessed HPMS to download data on potential fraud and abuse
                   reported by Part D sponsors from 2010 through 2012.13 We reviewed the
                   sponsors’ aggregate data to determine the number and percentage of
                   sponsors that did or did not report data on potential fraud and abuse for
                   each year. We analyzed the data to determine the types of fraud and abuse
                   incidents reported and the total and average number of (1) total incidents
                   identified; (2) incidents identified through internal efforts; (3) incidents
                   identified through external sources; (4) inquiries conducted; (5) corrective
                   actions initiated; and (6) referrals to CMS, State agencies, and Federal and
                   local law enforcement entities.
                   To determine the type of contract that each sponsor had with CMS, we
                   accessed CMS’s publicly available Part D enrollment files for December
                   of each year. We excluded sponsors that had only cost or demonstration
                   contracts with CMS.14, 15 We excluded sponsors of “employer direct” plans
                   because they are excluded from the option of reporting this data. 16 We
                   also excluded sponsors of Programs of All-Inclusive Care for the Elderly
                   (PACE) because they are exempt from all Part D reporting requirements.17
                   From the enrollment files, we determined the number of beneficiaries
                   enrolled in each contract from 2010 through 2012.18 Because of privacy
                   laws established under the Healthcare Insurance Portability and
                   Accountability Act of 1996, CMS does not publish the enrollment figures
                   for contracts covering 10 or fewer beneficiaries. To calculate enrollment
                   statistics, we assigned such contracts a beneficiary enrollment of 10.


                   12
                      OIG, Medicare Drug Plan Sponsors’ Identification of Potential Fraud and Abuse,
                   OEI-03-07-00380, October 2008.
                   13
                      We accessed HPMS on March 5 and 6, 2013. 

                   14
                      Medicare payments for cost contracts are based on the reasonable costs of providing

                   services to enrollees. 

                   15
                      Demonstration contracts test improvements in Medicare coverage, payment, and

                   quality of care. These contracts usually operate for a limited time, are for a specific 

                   group of people, and/or are offered only in specific areas.

                   16
                      An “employer direct” plan is one in which the employer or union contracts directly
                   with CMS to offer Part D coverage for its Medicare-eligible retirees. 

                   17
                      PACE is a benefit that features a comprehensive service delivery system and integrated 

                   Medicare and Medicaid financing.

                   18
                      We accessed enrollment data at https://www.cms.gov on March 7, 2013.

Less Than Half of Part D Sponsors Voluntarily Reported Data on Potential Fraud and Abuse (OEI-03-13-00030)   5
                   We compared reported data among sponsors of different size on the basis
                   of their enrollment numbers, and we identified any significant differences
                   in reporting. To compare sponsors’ rates of incidents identified relative to
                   their enrollment size, we calculated the number of incidents that sponsors
                   identified per 1,000 beneficiaries.
                   CMS Survey. We surveyed CMS about its review and use of the sponsors’
                   reported fraud and abuse data. As part of the survey, we requested any and
                   all policies and procedures related to CMS’s collection, review, and use of
                   the data.
                   We used the data to determine whether CMS had followed up with
                   sponsors. We also determined whether CMS had used the data to share
                   information about potential fraud and abuse with its contractors and with
                   sponsors. In addition, we determined whether CMS had used the data to
                   monitor or oversee the sponsors’ programs to control fraud and abuse.
                   Limitations
                   We did not verify the data on potential fraud and abuse reported by
                   sponsors to CMS.
                   Standards
                   This study was conducted in accordance with the Quality Standards for
                   Inspection and Evaluation issued by the Council of the Inspectors General
                   on Integrity and Efficiency.




Less Than Half of Part D Sponsors Voluntarily Reported Data on Potential Fraud and Abuse (OEI-03-13-00030)   6
                     FINDINGS
                     More than half of Part D plan sponsors did not report
                     data on potential fraud and abuse between 2010 and
                     2012
                     In 2010, CMS modified its Part D reporting requirements to encourage
                     sponsors to voluntarily report aggregated data on potential fraud and
                     abuse. Since this change, no more than 40 percent of sponsors reported
                     any fraud and abuse data between 2010 and 2012. Forty percent of
                     sponsors reported data in 2010, 37 percent in 2011, and 35 percent in
                     2012. There were 701 sponsors that had PDP or MA-PD contracts with
                     CMS for at least one year between 2010 and 2012. Across all 3 years,
                     46 percent of sponsors (320 of 701) reported data. Table 1 shows the
                     number and percentage of sponsors that reported data.


      Table 1: Number and Percentage of Part D Plan Sponsors That Voluntarily
      Reported Data From 2010 Through 2012

                                                                                                          Total Across
                                           2010                   2011                  2012                       1
                                                                                                             Years


           Number of Part D
           Plan Sponsors                            651                    626                   620                    701


           Number of Part D
           Plan Sponsors That
           Reported Data                            263                    231                   217                    320


           Percentage of Part D
           Plan Sponsors That
           Reported Data                           40%                    37%                    35%                   46%

       Source: OIG analysis of Part D plan sponsors’ data reported in HPMS, 2013.
       1
        The number of Part D plan sponsors in this column is a count of unique sponsors that had contracts with CMS across
       these 3 years.


                     Of the 701 sponsors that had contracts with CMS, 78 sponsors had
                     contracts for only 1 year, 50 sponsors for 2 years, and 573 sponsors for all
                     3 years. Among sponsors that held contracts across all 3 years, more than
                     half (293 of 573 sponsors) did not report any aggregate data on potential
                     fraud and abuse for all 3 years.
                     The 293 sponsors that did not voluntarily report any data for all 3 years
                     during which they had contracts with CMS covered 14.5 million
                     beneficiaries in 2012, or 46 percent of the total number of beneficiaries
                     enrolled in Part D plans. Therefore, CMS does not have data on incidents


Less Than Half of Part D Sponsors Voluntarily Reported Data on Potential Fraud and Abuse (OEI-03-13-00030)                    7
                   of potential fraud and abuse for plans covering almost half of the
                   beneficiaries enrolled in Part D. The largest sponsor that did not
                   voluntarily report any data across all 3 years covered between 6 and
                   9 percent of the total number of beneficiaries enrolled in Part D from 2010
                   through 2012.
                   Sponsors’ identification of incidents of potential fraud
                   and abuse varied significantly, from 0 to almost
                   14,000 incidents a year
                   Sponsors identified 64,135 incidents of potential fraud and abuse between
                   2010 and 2012. The number of such incidents identified varied
                   significantly among the 320 sponsors that voluntarily reported data. The
                   number of incidents sponsors identified annually ranged from 0 to 13,919,
                   with an annual average of 90 incidents per sponsor and a median of
                   4 incidents per sponsor. Nearly a quarter of sponsors identified just
                   one incident of potential fraud and abuse during a single reporting year.
                   The total number of incidents of potential fraud and abuse identified did
                   not increase over the years. Sponsors identified the highest number of
                   incidents of potential fraud and abuse in 2010, or 26,092 incidents. In
                   2011 and 2012, the total numbers of incidents of potential fraud and abuse
                   identified were 12,796 and 25,247, respectively.
                   Of the 320 Part D plan sponsors that reported data, more than
                   one-third did not identify any incidents of potential fraud and
                   abuse in at least one year
                   From 2010 through 2012, 117 of 320 sponsors did not identify any
                   incidents of potential fraud and abuse in at least one of the reporting years.
                   The 117 sponsors covered 1.2 million beneficiaries in the years without
                   reported incidents of potential fraud and abuse. Fifty-nine of these
                   sponsors did not identify any incidents for any of the years for which they
                   reported data.
                   In 2012, three Part D plan sponsors identified more than
                   two-thirds of all reported fraud and abuse incidents
                   Of the 217 sponsors that reported data in 2012, 3 sponsors identified more
                   incidents than all other sponsors combined. These 3 sponsors identified
                   13,410 incidents (53 percent of the total), 2,586 incidents (10 percent), and
                   1,287 incidents (5 percent), respectively. In contrast, the majority of
                   sponsors each identified fewer than 10 incidents in 2012. Figure 1
                   provides the ranges of incidents identified by sponsors in 2012.



Less Than Half of Part D Sponsors Voluntarily Reported Data on Potential Fraud and Abuse (OEI-03-13-00030)   8
                   Figure 1: Range of Numbers of Incidents of Potential Fraud and Abuse
                   Identified by Part D Plan Sponsors in 2012

                                              80
                                                          74

                                              70



                                              60
                                                                   56
                    Number of Plan Sponsors




                                              50   48



                                              40



                                              30



                                              20
                                                                                     15
                                                                            12
                                              10                                              7

                                                                                                       2       2                  1
                                                                                                                        0
                                               0
                                                   0    1 to 9   10 to 49 50 to 99 100 to   200 to   500 to 1,000 to 5,000 to    More
                                                                                    199      499      999    4,999    9,999      than
                                                                                                                                10,000
                                                                        Range of Numbers of Incidents Identified
                   Source: OIG analysis of Part D plan sponsors’ data reported in HPMS, 2013.


                   The variability in the number of incidents identified was often not
                   explained by the size of the sponsors’ enrollment. To compare sponsors’
                   rate of incidents identified relative to their enrollment size, we calculated
                   the number of incidents identified by sponsor per 1,000 beneficiaries.
                   Four sponsors identified more than 100 incidents per 1,000 beneficiaries.
                   All four of these sponsors had low beneficiary enrollment.19 The sponsor
                   with the highest rate—308 incidents per 1,000 beneficiaries—identified
                   121 incidents, yet had only 393 beneficiaries enrolled in its plan. The
                   majority of sponsors (159 out of 217) identified less than 1 incident per
                   1,000 beneficiaries. Among the sponsors that identified incidents of
                   potential fraud and abuse, the sponsor with the lowest rate—0.03 incidents
                   per 1,000 beneficiaries—identified just 1 incident per the
                   38,144 beneficiaries enrolled in its plan. Appendix A provides the number


                   19
                                     These 4 sponsors had total beneficiary enrollments of 33, 185, 393, and 1,963.

Less Than Half of Part D Sponsors Voluntarily Reported Data on Potential Fraud and Abuse (OEI-03-13-00030)                            9
                   of incidents reported by each sponsor in 2012, the number of beneficiaries
                   enrolled in each sponsor’s plan, and the range of numbers of incidents
                   identified per 1,000 beneficiaries.
                   CMS does not have detailed information on the incidents
                   identified by Part D plan sponsors because of its limited
                   reporting categories
                   Sponsors may use five general categories—for example, “inappropriate
                   billing” or “providing false information”— to identify the different types
                   of incidents. These categories provide only very broad information about
                   the types of potential fraud and abuse that sponsors are identifying.
                   Because of the limited categories, CMS does not have specific information
                   about who committed the potential fraud and abuse or other details about
                   the incidents.
                   In addition, for thousands of incidents of potential fraud and abuse
                   reported from 2010 through 2012, the types are unknown because
                   sponsors categorized these incidents as “other.” In 2010 and 2011, “other”
                   was the second most common type of incident identified by sponsors; at
                   least 10 percent of incidents were categorized in this way. CMS does not
                   require sponsors to specify or describe what is included in this category.
                   Therefore, CMS does not know the incident type for a large number of
                   incidents being reported.
                   Without detailed information about incidents of potential fraud and abuse
                   reported by sponsors, CMS may be missing the opportunity to discover
                   and alert sponsors to new fraud and abuse schemes. Appendix B shows
                   the number and types of incidents of potential fraud and abuse identified
                   by sponsors between 2010 and 2012.
                   Twenty-eight percent of Part D plan sponsors
                   reported initiating no inquiries and corrective actions
                   regarding incidents of potential fraud and abuse
                   between 2010 and 2012
                   CMS requires sponsors to conduct a timely, reasonable inquiry and to
                   carry out appropriate corrective actions in response to potential fraud and
                   abuse. From 2010 to 2012, 28 percent of the 261 sponsors that identified
                   at least 1 incident of potential fraud and abuse reported initiating no
                   inquiries and corrective actions with regard to any of these incidents. In
                   that timeframe, these 74 sponsors identified 4,028 incidents of potential
                   fraud and abuse. Of these sponsors, 38 percent reported initiating no



Less Than Half of Part D Sponsors Voluntarily Reported Data on Potential Fraud and Abuse (OEI-03-13-00030)   10
                          inquiries and 51 percent reported initiating no corrective actions in
                          response to identified incidents.
                          Though they are not required to do so, sponsors can also refer incidents of
                          potential fraud and abuse to CMS, Federal and local law enforcement, and
                          State agencies. Sixty-one percent of the 261 sponsors did not refer any
                          identified incidents to these entities.
                          Across the 3 years, sponsors initiated 73,102 inquiries and
                          23,833 corrective actions with regard to identified incidents and they
                          referred 3,834 incidents to CMS. Table 2 provides the number of actions
                          taken by sponsors each year.


    Table 2: Number of Actions Taken by Part D Plan Sponsors in Response to Incidents of
    Potential Fraud and Abuse From 2010 Through 2012


                                                             2010                                  2011                                   2012


    Type of Action Taken in                                         Percentage                            Percentage                             Percentage
                                                Number of                              Number of                              Number of
    Response to Incidents of                                          of 26,092                             of 12,796                              of 25,247
                                                  Actions                                Actions                                Actions
    Potential Fraud and Abuse                                         Incidents                             Incidents                              Incidents
                                                 Reported                      1        Reported                     1         Reported                     1
                                                                     Identified                            Identified                             Identified
                                                                                                                                                                1
    Initiated Inquiries                              25,381                 97%               5,357               42%              42,364              168%



    Initiated Corrective Actions
                                                       9,245                35%               2,300               18%              12,288                49%


    Referred to CMS
                                                         778                 3%               1,598               12%                1,458                 6%


    Referred to Federal Law
    Enforcement                                            55              < 1%                   85              < 1%                  42              < 1%


    Referred to Local Law
    Enforcement                                            25              < 1%                   26              < 1%                  15              < 1%

    Referred to State Insurance
    Commissioners or State                                                 < 1%
                                                         101                                    172                 1%                 174              < 1%
    Licensing Authorities

Source: OIG analysis of Part D plan sponsors’ data reported in HPMS, 2013.
1
 For inquiries and corrective actions, CMS does not require the data to be reported as a subset of the incidents identified for that reporting year.
Therefore, it is possible that inquiries and corrective actions may correspond to incidents of potential fraud and abuse identified in a prior year. In 2012,
CMS instructed sponsors to report referrals to CMS and other entities as a subset of the number of incidents identified during the reporting year.




    Less Than Half of Part D Sponsors Voluntarily Reported Data on Potential Fraud and Abuse (OEI-03-13-00030)                                   11
                   Anomalies in inquiry data may stem from a lack of guidance to
                   Part D plan sponsors
                   It is interesting to note that the number of inquiries initiated in 2012 was
                   significantly higher than the total number of incidents of potential fraud
                   and abuse reported that year—42,364 inquiries were made, whereas only
                   25,247 incidents were identified. Furthermore, this number of inquiries
                   was higher than the combined total number of incidents identified in 2010
                   and 2011. The highest number of inquiries conducted by a sponsor in that
                   year was 33,525; this was the same sponsor that identified the highest
                   number of incidents (13,410 incidents).
                   CMS does not require the number of inquiries to be reported as a subset of
                   the number of incidents identified during the year. Therefore, some of the
                   anomalies in the inquiry data may be due in part to carryover from
                   previous reporting years. Alternatively, it may be caused by sponsors’
                   counting inquiries in different ways. In a 2010 report, OIG found
                   differences in the ways in which some MA organizations defined and
                   tracked inquiries that they initiated in response to incidents of potential
                   fraud and abuse.20 For example, one MA organization defined the number
                   of inquiries it conducted as the number of its staff members who
                   investigated a particular incident of potential fraud and abuse. Another
                   organization defined inquiries as “the number of unique contacts that [the]
                   organization made during the investigation of each incident.” It is
                   possible that Part D plan sponsors also may be using distinctly different
                   methods to arrive at the number of inquiries they reported having
                   conducted.
                   Although CMS reported that it conducted basic
                   summary analyses of the data on potential fraud and
                   abuse, it did not perform quality assurance checks on
                   the data or use them to monitor or oversee the Part D
                   program
                   CMS reported that from 2010 through 2012, it conducted basic summary
                   analyses on data on potential fraud and abuse. For instance, CMS stated
                   that it summarized fraud and abuse control activities across sponsors, as
                   well as across years. CMS stated that it integrated data from other
                   sources, such as CMS’s Complaint Tracking Module, into the analysis.21

                   20
                      OIG, Medicare Advantage Organizations’ Identification of Potential Fraud and Abuse,
                   OEI-03-10-00310, February 2012. 

                   21
                      The Complaint Tracking Module is part of HPMS and is the central repository of 

                   Medicare Part C and Part D complaints. 


Less Than Half of Part D Sponsors Voluntarily Reported Data on Potential Fraud and Abuse (OEI-03-13-00030)   12
                   However, during this time period, CMS did not perform any quality
                   assurance checks on the data. It also did not use the data for monitoring or
                   oversight purposes, nor did it share the data with sponsors or law
                   enforcement.

                   CMS did not perform any quality assurance checks or followup
                   on the fraud and abuse data reported by Part D plan sponsors
                   CMS’s Technical Specifications Document for 2011 and 2012 states that
                   CMS can perform quality assurance checks to establish benchmarks to
                   identify outliers or potentially erroneous data on fraud and abuse.22 It also
                   states that CMS can identify outliers and notify sponsors to give them the
                   opportunity to correct submitted data if needed. However, CMS reported
                   that it did not perform any quality assurance checks on the voluntarily
                   reported data between 2010 and 2012 or notify any sponsors that their data
                   from 2010 through 2012 were deemed to be outliers.
                   CMS expects sponsors to validate their data. In its Technical
                   Specifications Document, CMS states that sponsors should perform a data
                   validation check prior to submitting their data. CMS specifies that the
                   total incidents of potential fraud and abuse should equal the sum of the
                   individual types of incidents. CMS also specifies that the incidents
                   identified through internal efforts and external sources should be subsets
                   of the total incidents identified in the reporting year.
                   We performed a number of simple checks that either CMS or sponsors
                   could have done to ensure the accuracy of sponsors’ reported data. For
                   2012, we found that the total number of incidents identified and reported
                   in HPMS across sponsors did not equal the sum of the number of each
                   type of incident. Upon further exploration, we found that this was because
                   the total number of incidents identified and reported in HPMS did not
                   equal the sum of the individual types of incidents identified for two
                   sponsors. In addition, we found that for 39 sponsors, the sum of the
                   incidents identified through internal efforts and external sources did not
                   equal the total number of incidents reported.
                   Although CMS did not perform any quality assurance checks on the data
                   from 2010 to 2012, it reported that it is designing procedures to notify
                   sponsors that do not pass quality assurance checks. CMS stated it will
                   review and investigate any extreme values reported by sponsors and that it

                   22
                     CMS, Medicare Part D Plan Reporting Requirements: Technical Specifications
                   Document, Contract Year 2011, p. 63; Medicare Part D Plan Reporting Requirements:
                   Technical Specifications Document, Contract Year 2012, p. 67.

Less Than Half of Part D Sponsors Voluntarily Reported Data on Potential Fraud and Abuse (OEI-03-13-00030)   13
                   will attempt to determine whether extreme values are truly outliers or
                   whether they are actually data entry errors. CMS reported it will notify
                   sponsors when it identifies data that need clarification and ask the sponsor
                   to correct any mistakes.
                   CMS did not use the fraud and abuse data to monitor or
                   oversee Part D plan sponsors
                   CMS is responsible for the oversight of Part D plan sponsors. However,
                   CMS reported that it did not use the voluntarily reported data for
                   monitoring or oversight purposes. CMS did not follow up with sponsors
                   about their fraud and abuse control activities related to the voluntarily
                   reported data. CMS stated that it is formulating processes to follow up
                   with sponsors and to use the reported data to monitor and oversee
                   sponsors.
                   CMS reported that it plans to conduct further analyses on the voluntarily
                   reported data, including statistical comparisons of fraud, waste, and abuse
                   incidents reported by sponsors and parent organizations by each data
                   element for 2010, 2011, and 2012. These comparisons may include
                   percentage relationships and average values, as well as identifications of
                   sponsors with the most and least identified incidents. CMS stated that
                   future methodologies may incorporate results from other proactive data
                   analysis projects and compare those results to voluntarily reported data to
                   identify any trends, patterns, or anomalies.
                   CMS did not share the fraud and abuse data with Part D plan
                   sponsors or law enforcement
                   CMS reported that from 2010 through 2012, it did not share the data on
                   potential fraud and abuse with its National Benefit Integrity Medicare
                   Drug Integrity Contractor (NBI MEDIC), sponsors, or law enforcement
                   (e.g., OIG, the Department of Justice).23 CMS noted that beginning in
                   2013, it shared the data with its NBI MEDIC. According to CMS, the
                   benefit integrity contractor has developed methodologies to analyze the
                   data. CMS stated that it is discussing and formulating processes for
                   sharing data with sponsors and law enforcement. However, CMS stated
                   that it is difficult to draw conclusions because the reporting of these data is
                   voluntary.




                   23
                    The NBI MEDIC is responsible for detecting and preventing fraud, waste, and abuse in
                   Medicare Parts C and D nationwide.

Less Than Half of Part D Sponsors Voluntarily Reported Data on Potential Fraud and Abuse (OEI-03-13-00030)   14
                   CONCLUSION AND RECOMMENDATIONS
                   Part D plan sponsors’ efforts to identify and address potential fraud and
                   abuse are crucial to protecting the integrity of the Part D program.
                   Although CMS does not require sponsors to report the identification of or
                   response to incidents of potential fraud and abuse, CMS allowed sponsors
                   to voluntarily report data on potential fraud and abuse beginning in 2010.
                   However, more than half of sponsors did not report data on potential fraud
                   and abuse from 2010 through 2012. Even when sponsors did report data,
                   CMS did not use these data for monitoring or oversight purposes, nor did
                   CMS share these data with other plan sponsors or law enforcement.
                   The number of incidents of potential fraud and abuse identified by
                   sponsors varied significantly, and this variation often was not explained by
                   the size of the sponsors’ enrollment. More than one-third of reporting
                   sponsors did not identify any incidents of potential fraud and abuse in at
                   least one of their reporting years. Seventy-three sponsors identified just
                   1 incident of potential fraud and abuse in a single year, yet 1 sponsor
                   identified over 13,000 incidents of potential fraud and abuse. Despite the
                   variation across sponsors when reporting incidents of potential fraud and
                   abuse and actions taken on these incidents, CMS did not review the
                   reasons that caused sponsors’ significant differences in reporting.
                   CMS could strengthen the usefulness of reported data on fraud and abuse
                   by clarifying terms and requesting more specific information about
                   incidents. CMS provided sponsors with only a few broad categories with
                   which to report the type of data on incidents of potential fraud and abuse.
                   In addition, sponsors reported “other” as the type of fraud for thousands of
                   incidents. Therefore, the data reported lack details and their usefulness in
                   identifying emerging fraud schemes or trends is limited. The lack of clear
                   definitions for fraud terms also may have led to anomalies in the reported
                   data. For example, sponsors, overall, reported initiating a significantly
                   higher number of inquiries in 1 year than the total number of incidents
                   reported that year. This may stem from a lack of guidance to sponsors on
                   how to count inquiries, thereby leaving sponsors to develop their own,
                   distinctly different methods to do so.
                   Not all sponsors that identified incidents reported initiating inquiries or
                   corrective actions or referring incidents to outside entities for further
                   investigation. This raises questions about whether all sponsors have fully
                   implemented programs to effectively address potential fraud and abuse as
                   required.



Less Than Half of Part D Sponsors Voluntarily Reported Data on Potential Fraud and Abuse (OEI-03-13-00030)   15
                   Because CMS does not have data on potential fraud and abuse for more
                   than half of Part D plans, it cannot assess the efficacy throughout the Part
                   D program of sponsors’ efforts to control fraud and abuse. CMS itself has
                   stated that it is difficult to draw conclusions about the fraud and abuse data
                   because the data are reported voluntarily.
                   We recommend that CMS:
                   Amend regulations to require Part D plan sponsors to report to
                   CMS their identification of and response to incidents of
                   potential fraud and abuse
                   Since 2010, sponsors have had the option to voluntarily report aggregate
                   data on fraud and abuse activity to CMS. In previous reports, OIG has
                   recommended that CMS require sponsors to report incidents of potential
                   fraud and abuse to CMS. We continue to recommend that CMS require
                   sponsors to report to CMS their identification of and response to incidents
                   of potential fraud and abuse. CMS should also require that sponsors
                   provide more detailed information regarding incidents of potential fraud
                   and abuse—specifically, information about who committed the potential
                   fraud and other details about the incident. CMS may also want to provide
                   more distinct categories of fraud and abuse so that sponsors could specify
                   the types of incidents. This information could result in earlier
                   identification of fraud and abuse schemes, which would be important to
                   share with other sponsors and law enforcement. CMS should also use
                   these data to target audits and to evaluate the effectiveness of sponsors’
                   programs to control fraud, waste, and abuse.
                   Provide Part D plan sponsors with specific guidelines on how
                   to define and count incidents of potential fraud and abuse,
                   related inquiries, and corrective actions
                   Existing CMS documentation provides basic definitions of fraud and
                   abuse incidents. However, there was wide variation in the numbers of
                   incidents and inquiries that sponsors reported from 2010 through 2012.
                   This may be due in part to the fact that CMS has not provided sponsors
                   with more specific guidance regarding the definitions of fraud and abuse
                   terms. Providing such guidance would help CMS to ensure that fraud and
                   abuse information could be compared across sponsors and would promote
                   a common understanding among sponsors.




Less Than Half of Part D Sponsors Voluntarily Reported Data on Potential Fraud and Abuse (OEI-03-13-00030)   16
                   Review data from Part D plan sponsors to determine why
                   certain sponsors reported especially high or low numbers of
                   incidents of potential fraud and abuse, related inquiries, and
                   corrective actions
                   From this review, CMS would be able to determine the extent to which the
                   significant variation in reporting is caused by (1) a lack of a common
                   understanding of key fraud and abuse terms across sponsors; (2) the
                   quality of sponsors’ programs to prevent, detect, and correct fraud, waste,
                   and abuse; (3) reporting errors made by sponsors; or (4) natural variation
                   of fraud and abuse across sponsors and geographic areas.
                   Share Part D plan sponsors’ data on potential fraud and abuse
                   with all sponsors and law enforcement
                   CMS stated that it has begun sharing sponsors’ data with the benefit
                   integrity contractor. Sharing data on potential fraud and abuse with
                   sponsors and law enforcement would enable them to target problematic
                   providers or beneficiaries and quickly respond to emerging fraud and
                   abuse issues.

                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   CMS did not concur with our first recommendation. CMS stated that
                   sponsors are held accountable for detecting and preventing fraud and
                   abuse and sponsors already report potential fraud to CMS's NBI MEDIC.
                   CMS also stated that requiring sponsors to report directly to CMS itself
                   may duplicate efforts, expend unnecessary additional resources, and
                   potentially inundate CMS and its contractors with information that would
                   not necessarily yield a better outcome in terms of stopping Part D fraud.
                   CMS raised concerns that reporting data to CMS and the NBI MEDIC
                   would be duplicative. OIG is not recommending duplicative reporting.
                   CMS may choose to select the NBI MEDIC as its designee to receive
                   sponsors’ fraud reports.
                   While CMS states in its comments that sponsors already report potential
                   fraud to the NBI MEDIC, they currently are not required to do so. The
                   Prescription Drug Benefit Manual, Chapter 9, Compliance Program
                   Guidelines, specifies that reporting of fraud, waste, and abuse is
                   “voluntary” and that sponsors “should refer cases involving potential fraud
                   and abuse” to the NBI MEDIC. Because these data are voluntarily
                   reported, there is not a comprehensive set of data that enables CMS to
                   monitor sponsors’ fraud, waste, and abuse programs. Yet, according to

Less Than Half of Part D Sponsors Voluntarily Reported Data on Potential Fraud and Abuse (OEI-03-13-00030)   17
                   CMS’s reporting requirements document, these data are intended to serve
                   that purpose. Therefore, OIG continues to recommend that CMS
                   specifically require sponsors to report their identification of and response
                   to incidents of potential fraud and abuse to CMS or its designee.
                   Requiring sponsors to report these data will provide CMS a more
                   complete and accurate accounting of the identification of potential fraud
                   and abuse incidents, as well as sponsors’ efforts to reduce fraud and abuse
                   in Medicare.
                   CMS partially concurred with our second recommendation. CMS stated
                   that each year, it issues the reporting requirements document to sponsors.
                   This document includes a discussion about voluntarily reported data
                   related to anti-fraud activities and definitions of potential fraud and abuse
                   incidents. CMS also reported that the July 27, 2012, revision to Chapter 9
                   (Compliance Program Guidelines) of the Prescription Drug Benefit
                   Manual provides guidance to sponsors on how to report fraud, waste, and
                   abuse. OIG agrees that basic definitions of potential fraud and abuse
                   incidents are included in the reporting requirements document and the
                   Prescription Drug Benefit Manual. However, these documents do not
                   specifically outline how sponsors should define and count an incident, an
                   inquiry, or corrective action. Therefore, OIG continues to recommend that
                   CMS provide sponsors with specifics on how to define and count these
                   data elements.
                   CMS concurred with our third recommendation. CMS stated that data
                   sponsors report to it and the referrals sponsors send to the NBI MEDIC
                   can be used to analyze the variation in reporting that may exist. CMS
                   stated it can use this information to assist sponsors that may require
                   additional assistance in understanding potential fraud, waste, and abuse
                   issues, and the ways in which to investigate those issues and to identify
                   schemes that may be widespread. CMS reported that it is reviewing and
                   formulating the data reported to the NBI MEDIC and the data voluntarily
                   reported to CMS to strengthen its outreach and education efforts.
                   Regarding the fourth recommendation, CMS partially concurred and
                   stated that it shares any specific (sponsor or prescriber) information with
                   law enforcement upon request. CMS stated that it does not believe that
                   sending law enforcement all information would be beneficial, as law
                   enforcement cannot pursue all leads since it has finite resources and,
                   therefore, must narrow its focus. CMS also stated that specific data
                   elements from individual sponsor's referrals are not typically shared with
                   other sponsors, but information regarding Part D fraud schemes is shared


Less Than Half of Part D Sponsors Voluntarily Reported Data on Potential Fraud and Abuse (OEI-03-13-00030)   18
                   with all sponsors and law enforcement through fraud alerts and quarterly
                   Medicare Parts C and D Fraud Work Group meetings. OIG understands
                   that CMS may use its discretion to determine what information to share
                   with law enforcement and sponsors.
                   The full text of CMS’s comments is provided in Appendix C.




Less Than Half of Part D Sponsors Voluntarily Reported Data on Potential Fraud and Abuse (OEI-03-13-00030)   19
APPENDIX A
Table A-1 compares the number of incidents of potential fraud and abuse identified by
Part D plan sponsors to the number of beneficiaries enrolled in Part D plans in 2012. The
table is sorted by the number of incidents identified per 1,000 beneficiaries in descending
order. Each sponsor is also ranked by number of incidents identified and number of
beneficiaries enrolled.

 Table A-1: Number of Incidents Identified for Each Part D Plan Sponsor
 That Reported Data and Number of Beneficiaries in 2012
                            Total Number of                                                     Incidents Identified
     Total Number of           Beneficiaries     Rank by Incidents      Rank by Beneficiary                     Per
            Incidents       Enrolled in Plan             Identified             Enrollment      1,000 Beneficiaries
                  121                    393                     22                    205                   307.89
                    6                     33                   110                     214                   181.82
                  305                  1,963                      8                    185                   155.37
                   20                    185                     66                    211                   108.11
                  414                  4,644                      7                    152                    89.15
                2,586                 38,371                      2                      49                   67.39
                  148                  2,513                     20                    175                    58.89
                  106                  1,998                     26                    184                    53.05
                  193                  3,887                     13                    159                    49.65
                   52                  1,322                     38                    194                    39.33
               13,410               383,586                       1                       7                   34.96
                  230                  6,785                     11                    134                    33.90
                  464                 16,191                      6                      91                   28.66
                  217                  7,837                     12                    129                    27.69
                  713                 30,684                      4                      60                   23.24
                   13                    627                     89                    204                    20.73
                  281                 15,537                      9                      94                   18.09
                  190                 14,362                     14                      97                   13.23
                   35                  3,300                     48                    167                    10.61
                   38                  4,013                     44                    157                     9.47
                   73                  9,029                     31                    117                     8.09
                  176                 25,268                     16                      70                    6.97
                   42                  7,960                     42                    128                     5.28
                   14                  2,947                     86                    173                     4.75
                   16                  3,490                     78                    164                     4.58
                  184                 40,459                     15                      47                    4.55
                   60                 13,246                     34                    102                     4.53
                   18                  4,065                     72                    156                     4.43
                  154                 35,027                     19                      55                    4.40
                   15                  3,826                     81                    160                     3.92
                   51                 13,896                     39                      99                    3.67
                   57                 15,860                     35                      93                    3.59
                    1                    317                   169                     207                     3.15
                   30                  9,739                     55                    111                     3.08
                   23                  8,890                     60                    118                     2.59
                    5                  2,083                   119                     181                     2.40
                                                                                                continued on next page




Less Than Half of Part D Sponsors Voluntarily Reported Data on Potential Fraud and Abuse (OEI-03-13-00030)         20
 Table A-1: Number of Incidents Identified for Each Part D Plan Sponsor
 That Reported Data and Number of Beneficiaries in 2012 (Continued)
                            Total Number of                                                     Incidents Identified
     Total Number of           Beneficiaries     Rank by Incidents      Rank by Beneficiary                     Per
            Incidents       Enrolled in Plan             Identified             Enrollment      1,000 Beneficiaries
                 113                  48,662                     24                      41                    2.32
                   4                   1,730                   130                     192                     2.31
                   7                   3,263                   106                     169                     2.15
                 134                  62,665                     21                      28                    2.14
                  16                   7,652                     77                    130                     2.09
                  68                  35,401                     33                      54                    1.92
                  73                  45,371                     30                      43                    1.61
                  18                  11,560                     71                    109                     1.56
                  14                   9,365                     85                    114                     1.49
                  11                   7,424                     93                    132                     1.48
                 236                161,523                      10                      12                    1.46
                  18                  12,452                     70                    105                     1.45
                  96                  67,697                     28                      26                    1.42
                   5                   3,579                   118                     162                     1.40
                  34                  25,795                     49                      69                    1.32
                   8                   6,223                     99                    139                     1.29
                   8                   6,505                     98                    136                     1.23
                  72                  61,856                     32                      30                    1.16
                  19                  16,600                     69                      89                    1.14
                  19                  17,529                     68                      87                    1.08
                  54                  50,070                     37                      39                    1.08
                   2                   1,871                   149                     188                     1.07
                   1                   1,037                   168                     199                     0.96
                   7                   7,476                   105                     131                     0.94
                  13                  14,039                     88                      98                    0.93
                  33                  35,657                     50                      53                    0.93
                   3                   3,274                   139                     168                     0.92
                  17                  18,645                     75                      82                    0.91
                 158                182,208                      18                      10                    0.87
                  14                  16,343                     84                      90                    0.86
                  31                  36,318                     53                      52                    0.85
                  45                  53,996                     41                      34                    0.83
                   2                   2,452                   148                     177                     0.82
                  22                  27,300                     62                      65                    0.81
                  14                  18,237                     83                      83                    0.77
                   3                   3,937                   138                     158                     0.76
                   5                   6,631                   117                     135                     0.75
                   7                   9,312                   104                     116                     0.75
                  22                  31,401                     61                      56                    0.70
                   6                   8,631                   109                     122                     0.70
                  37                  53,938                     45                      35                    0.69
                   5                   7,375                   116                     133                     0.68
                  35                  51,937                     47                      37                    0.67
                   3                   4,512                   137                     153                     0.66
                   4                   6,075                   129                     141                     0.66
                  20                  31,009                     65                      57                    0.64
                                                                                                continued on next page




Less Than Half of Part D Sponsors Voluntarily Reported Data on Potential Fraud and Abuse (OEI-03-13-00030)         21
 Table A-1: Number of Incidents Identified for Each Part D Plan Sponsor
 That Reported Data and Number of Beneficiaries in 2012 (Continued)
                            Total Number of                                                     Incidents Identified
     Total Number of           Beneficiaries     Rank by Incidents      Rank by Beneficiary                     Per
            Incidents       Enrolled in Plan             Identified             Enrollment      1,000 Beneficiaries
                    4                  6,347                   128                     138                     0.63
                    2                  3,198                   147                     170                     0.63
                    2                  3,367                   146                     165                     0.59
                   17                 28,683                     74                      63                    0.59
                    5                  8,789                   115                     120                     0.57
                    9                 15,980                     97                      92                    0.56
                    1                  1,795                   167                     190                     0.56
                   31                 57,840                     52                      32                    0.54
                    1                  1,867                   166                     189                     0.54
                    5                  9,376                   114                     113                     0.53
                   23                 43,783                     59                      44                    0.53
                   46                 88,658                     40                      17                    0.52
                   13                 25,160                     87                      72                    0.52
                    1                  2,027                   165                     183                     0.49
                   15                 30,892                     80                      58                    0.49
                    1                  2,068                   164                     182                     0.48
                    4                  8,850                   127                     119                     0.45
                    9                 20,224                     96                      79                    0.45
                   31                 72,472                     51                      24                    0.43
                    4                  9,518                   126                     112                     0.42
                    2                  4,820                   145                     148                     0.41
                   30                 72,751                     54                      23                    0.41
                   11                 26,798                     92                      68                    0.41
                   35                 88,308                     46                      18                    0.40
                    2                  5,054                   144                     147                     0.40
                   28                 73,026                     56                      21                    0.38
                  105                283,508                     27                       9                    0.37
                   14                 38,271                     82                      50                    0.37
                   21                 58,808                     64                      31                    0.36
                  612              1,714,406                      5                       2                    0.36
                   56                157,542                     36                      13                    0.36
                   15                 42,358                     79                      45                    0.35
                    1                  2,864                   163                     174                     0.35
                    3                  8,710                   136                     121                     0.34
                    7                 20,338                   103                       78                    0.34
                1,287              3,786,436                      3                       1                    0.34
                   10                 29,834                     95                      61                    0.34
                    3                  9,341                   135                     115                     0.32
                   16                 51,377                     76                      38                    0.31
                   12                 38,560                     90                      48                    0.31
                    7                 22,557                   102                       77                    0.31
                    7                 22,855                   101                       76                    0.31
                    4                 13,750                   125                     101                     0.29
                   85                315,913                     29                       8                    0.27
                    5                 18,879                   113                       81                    0.26
                  171                646,772                     17                       5                    0.26
                                                                                                continued on next page




Less Than Half of Part D Sponsors Voluntarily Reported Data on Potential Fraud and Abuse (OEI-03-13-00030)         22
 Table A-1: Number of Incidents Identified for Each Part D Plan Sponsor
 That Reported Data and Number of Beneficiaries in 2012 (Continued)
                            Total Number of                                                     Incidents Identified
     Total Number of           Beneficiaries     Rank by Incidents      Rank by Beneficiary                     Per
            Incidents       Enrolled in Plan             Identified             Enrollment      1,000 Beneficiaries
                   7                  26,980                   100                       66                    0.26
                   5                  19,339                   112                       80                    0.26
                  26                101,923                      58                      15                    0.26
                  19                  76,040                     67                      20                    0.25
                   6                  25,188                   108                       71                    0.24
                   1                   4,269                   162                     154                     0.23
                   4                  17,889                   124                       85                    0.22
                   1                   4,693                   161                     151                     0.21
                   1                   4,694                   160                     150                     0.21
                   1                   4,722                   159                     149                     0.21
                  11                  53,304                     91                      36                    0.21
                   3                  15,459                   134                       95                    0.19
                   1                   5,173                   158                     146                     0.19
                  17                  92,173                     73                      16                    0.18
                   4                  22,863                   123                       75                    0.17
                   4                  22,999                   122                       74                    0.17
                   2                  12,758                   143                     103                     0.16
                  27                180,448                      57                      11                    0.15
                  21                152,637                      63                      14                    0.14
                  10                  72,774                     94                      22                    0.14
                 114                874,255                      23                       3                    0.13
                 111                856,479                      25                       4                    0.13
                   2                  16,640                   142                       88                    0.12
                   1                   8,525                   157                     124                     0.12
                   1                   8,553                   156                     123                     0.12
                   3                  28,181                   133                       64                    0.11
                   5                  54,789                   111                       33                    0.09
                  39                447,410                      43                       6                    0.09
                   1                  11,563                   155                     108                     0.09
                   1                  12,619                   154                     104                     0.08
                   6                  80,130                   107                       19                    0.07
                   2                  30,795                   141                       59                    0.06
                   4                  62,464                   121                       29                    0.06
                   3                  49,736                   132                       40                    0.06
                   4                  67,172                   120                       27                    0.06
                   3                  71,712                   131                       25                    0.04
                   2                  47,856                   140                       42                    0.04
                   1                  24,858                   153                       73                    0.04
                   1                  26,902                   152                       67                    0.04
                   1                  29,225                   151                       62                    0.03
                   1                  38,144                   150                       51                    0.03
                    0                 41,884                   170                       46                        0
                    0                 18,188                   171                       84                        0
                    0                 17,779                   172                       86                        0
                    0                 14,454                   173                       96                        0
                    0                 13,830                   174                     100                         0
                                                                                                continued on next page




Less Than Half of Part D Sponsors Voluntarily Reported Data on Potential Fraud and Abuse (OEI-03-13-00030)         23
 Table A-1: Number of Incidents Identified for Each Part D Plan Sponsor
 That Reported Data and Number of Beneficiaries in 2012 (Continued)
                                  Total Number of                                                                 Incidents Identified
      Total Number of                Beneficiaries         Rank by Incidents          Rank by Beneficiary                         Per
             Incidents            Enrolled in Plan                 Identified                 Enrollment          1,000 Beneficiaries
                     0                      12,047                       175                         106                             0
                     0                      11,622                       176                         107                             0
                     0                       9,753                       177                         110                             0
                     0                       8,502                       178                         125                             0
                     0                       8,351                       179                         126                             0
                     0                       8,100                       180                         127                             0
                     0                       6,491                       181                         137                             0
                     0                       6,142                       182                         140                             0
                     0                       5,661                       183                         142                             0
                     0                       5,495                       184                         143                             0
                     0                       5,364                       185                         144                             0
                     0                       5,197                       186                         145                             0
                     0                       4,117                       187                         155                             0
                     0                       3,605                       188                         161                             0
                     0                       3,510                       189                         163                             0
                     0                       3,302                       190                         166                             0
                     0                       3,183                       191                         171                             0
                     0                       3,043                       192                         172                             0
                     0                       2,460                       193                         176                             0
                     0                       2,311                       194                         178                             0
                     0                       2,188                       195                         179                             0
                     0                       2,104                       196                         180                             0
                     0                       1,943                       197                         186                             0
                     0                       1,926                       198                         187                             0
                     0                       1,785                       199                         191                             0
                     0                       1,680                       200                         193                             0
                     0                       1,257                       201                         195                             0
                     0                       1,223                       202                         196                             0
                     0                       1,133                       203                         197                             0
                     0                       1,045                       204                         198                             0
                     0                         763                       205                         200                             0
                     0                         705                       206                         201                             0
                     0                         670                       207                         202                             0
                     0                         642                       208                         203                             0
                     0                         379                       209                         206                             0
                     0                         315                       210                         208                             0
                     0                         297                       211                         209                             0
                     0                         199                       212                         210                             0
                     0                         174                       213                         212                             0
                     0                         122                       214                         213                             0
                     0                          28                       215                         215                             0
                     0                          10                       216                         216                                  0
                       0                        10                           217                          217                             0
                  25,247                14,034,918
Source: OIG analysis of Part D plan sponsors’ data reported in HPMS and enrollment data obtained from publically available files, 2013.




Less Than Half of Part D Sponsors Voluntarily Reported Data on Potential Fraud and Abuse (OEI-03-13-00030)                                24
APPENDIX B
Table B-1 shows the number and types of incidents of potential fraud and abuse identified by
sponsors between 2010 and 2012.


Table B-1: Number and Types of Incidents of Potential Fraud and Abuse Identified
by Part D Plan Sponsors From 2010 Through 2012
                                                                       Number Reported in             Number Reported in             Number Reported in
    Type of Incident                                                                2010                           2011                           2012

                                                        1
    Total Incidents of Potential Fraud and Abuse                                         26,092                         12,796                         25,247

           Inappropriate Billing                                                         21,365                           8,940                        16,848

           Providing False Information                                                     1,352                          1,257                         4,311

           Doctor-Shopping or Drug-Seeking Beneficiary                                       544                            592                            605

           Attempting To Steal Identity or Money                                             282                            323                            337

           Other                                                                           2,549                          1,684                         3,149


    Incidents of Potential Fraud and Abuse Identified                                    16,547                           8,872                        17,946
    Through Internal Efforts

    Incidents of Potential Fraud and Abuse Identified                                      8,877                          3,893                         7,256
    Through External Sources

Source: OIG analysis of Part D plan sponsors’ data reported in HPMS, 2013.
1
  According to CMS’s Technical Specifications Document, the total incidents of potential fraud and abuse should equal the sum of the individual types of
incidents. In addition, incidents identified through internal efforts and external sources should be subsets of the total incidents identified in the reporting
year. For all years, the total number of incidents of potential fraud and abuse did not equal the sum of the incidents identified through internal efforts and
external sources. In 2012, the total number of incidents of potential fraud and abuse did not equal the sum of the individual types of incidents.




Less Than Half of Part D Sponsors Voluntarily Reported Data on Potential Fraud and Abuse (OEI-03-13-00030)                                     25
APPENDIXC
Agency Comments



  (..·"'J.""""',._
    . - E..           DEPARTMENT OF HEALTH & HUMAN SERVICES                                    Ceniers for Medicare & Medicaid Services


    '"..,..r;,a                                                                                Administrator
                                                                                               Washington, DC 20201




                     DATE:            JAN - B2014
                     TO: 	          Daniel R. Levinson 

                                    Inspector General 

                                                          /S/
                     FROM: 	        Marll)<n TaveRner 

                                    Administrat&r 


                     SUBJECT: 	 Office of Inspector General (OIG) Draft Report: "Less Than Half of Part D
                                Sponsors Voluntarily Reported Potential Fraud and Abuse Data"
                                (OEI-03-13-00030)


                     The Centers for Medicare & Medicaid Services (CMS) appreciates the opportunity to review and
                     comment on the above-referenced OIG draft report. CMS is committed to combating fraud,
                     waste, and abuse in the Part D program and is continuously taking steps to strengthen our overall
                     efforts. Two key principles are guiding our approach: 1) reducing the number of Medicare
                     beneficiaries receiving coverage for prescription drugs that threaten their health and safety, and
                     2) preventing Part D coverage for prescription drugs dispensed by pharmacies or prescribed by
                     providers engaging in fraud or abuse.

                     Our strategy for Part D focuses on the validation and analysis of Part D claims data (prescription
                     drug event, or POE, data) that CMS receives from Part D sponsors and leveraging that data to
                     provide Part D plan sponsors, law enforcement agencies, and licensing boards with actionable
                     information. CMS is committed to working with Part D sponsors to implement this strategy;
                     however, we believe that requiring Part D sponsors to report all potential fraud and abuse would
                     have the potential to inundate the agency and our contractors with an unwieldy amount of
                     information that would not necessarily yield a better outcome in terms of stopping Part D fraud.

                     Our response to each of the OIG recommendations follows.

                     OIG Recommendation

                     The OIG recommends that CMS amend regulations to require Part D sponsors to report to CMS
                     their identification of and response to potential fraud and abuse incidents.

                     CMS Response

                     The CMS does not concur with this recommendation. Part D sponsors are held accountable for
                     detecting and preventing fraud and abuse. CMS has issued guidance citing the revision to




Less Than Half of Part D Sponsors Voluntarily Reported Data on Potential Fraud and Abuse (OEI-03-13-00030)                                26
Less Than Half of Part D Sponsors Voluntarily Reported Data on Potential Fraud and Abuse (OEI-03-13-00030)   27
Less Than Half of Part D Sponsors Voluntarily Reported Data on Potential Fraud and Abuse (OEI-03-13-00030)   28
                   ACKNOWLEDGMENTS
                   This report was prepared under the direction of Robert A. Vito, Regional
                   Inspector General for Evaluation and Inspections in the Philadelphia
                   regional office, and Linda M. Ragone, Deputy Regional Inspector General.
                   Tanaz Dutia served as the team leader for this study. Other Office of
                   Evaluation and Inspections staff from the Philadelphia regional office who
                   conducted the study include Joanna Bisgaier and Nancy J. Molyneaux.
                   Central office staff who provided support include Meghan Kearns and
                   Christine Moritz.




Less Than Half of Part D Sponsors Voluntarily Reported Data on Potential Fraud and Abuse (OEI-03-13-00030)   29
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
